Before the Committee on Commerce, Science, and Transportation
Subcommittee on Aviation Operations, Safety, and Security
United States Senate



                          Further Steps Are Needed
For Release on Delivery
Expected at
2:30 p.m. EDT
Tuesday
May 24, 2011              To Address Challenges
                          With the Management and
CC-2011-029



                          Operations of FAA’s
                          Controller Workforce


                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Madam Chairman, Ranking Member Thune, and Members of the Subcommittee,

Thank you for inviting me to this important hearing on the Federal Aviation
Administration’s (FAA) Air Traffic Control (ATC) system. As you know, the U.S.
aviation system is one of the safest in the world—due in part to the dedicated
professionals in FAA and throughout the aviation industry. However, several recent
incidents have raised concerns about the safety of the ATC system. These include reports
of on-duty controllers falling asleep as well as several high-profile operational errors,
when controllers failed to maintain minimum separation distances between aircraft.
These incidents are occurring at a time when veteran controllers are retiring at
unprecedented rates and more new controllers are entering the workforce, requiring
comprehensive training and placement efforts.

Administrator Babbitt has acted quickly to respond to these concerns, including standing
up a task force of external and internal experts to review controller training,
qualifications, and placement. The group is tasked with completing their efforts by the
fall of 2011. However, further steps are needed to address the challenges of managing
and overseeing the performance of FAA’s controller workforce.

Over the past decade, we have developed a comprehensive portfolio of work involving
ATC operations and addressing critical safety and workforce management issues. My
testimony today will focus on four areas involving the ATC workforce that we see as key
for effectively transitioning to the next generation of air traffic control: (1) identifying
and addressing the causes of operational errors, (2) mitigating controller fatigue risks,
(3) adequately staffing the controller workforce, and (4) training new controllers.

In summary, while FAA has acted quickly to address many of the recent incidents
involving the ATC system, FAA has yet to fully identify and mitigate risks related to the
management and operations of its controller workforce. FAA statistics show a recent
significant increase in operational errors; however, FAA has not yet determined whether
the increase is a result of better reporting systems or whether there are trends that require
mitigating actions. As recent media reports have shown, fatigue is a significant concern
for the controller workforce that FAA must address. Our work and that of the National
Transportation Safety Board (NTSB) has identified a series of factors that create an
inherent risk for controller fatigue, but FAA has not yet fully implemented
recommendations for mitigating that risk. FAA is also taking action to hire and train
nearly 11,000 new controllers through fiscal year 2020. However, our work shows that
FAA’s placement process does not adequately consider new controllers’ knowledge,
skills, and abilities when assigning them to ATC facilities, and expected innovations to
improve the quality and timeliness of controller training have not been realized. Ensuring
a sufficient, competent, and well trained controller workforce is critical to the safe and
efficient operation of the National Airspace System (NAS).



                                                                                           2
WEAKNESSES IN REPORTING LIMIT FAA’S ABILITY TO
IDENTIFY TRENDS IN OPERATIONAL ERRORS
FAA statistics indicate that operational errors have risen significantly over the past year.
However, it is not clear whether this reported increase is due to more operational errors
being committed or to improved reporting practices that have allowed FAA to capture a
more accurate count of those operational errors that have been committed.

According to FAA data, the number of operational errors by air traffic controllers
increased by 53 percent—from 1,234 to 1,887—between fiscal years 2009 and 2010.
However, FAA officials acknowledge that the increase is likely due to improved
reporting practices. Specifically, FAA states that the introduction of voluntary, non-
punitive safety reporting programs—such as the Air Traffic Safety Action Program
(ATSAP) 1—has encouraged controllers to voluntarily report operational errors. The
reported increase could also be the result of FAA’s implementation of the Traffic
Analysis and Review Program (TARP), which automatically identifies when operational
errors or other losses of separation between aircraft occur at terminal facilities. FAA’s
recent implementation of TARP represents substantial progress in addressing reporting
weaknesses. If used effectively and consistently at all terminal facilities, TARP could be
a significant tool for identifying trends in operational errors and addressing contributing
factors.

Historically, FAA’s oversight of operational error self-reporting has been problematic.
Since 2000, our work on operational errors has repeatedly raised concerns that nearly
300 FAA terminal facilities relied solely on controllers to self report errors. In some
cases, we found that the self-reporting process was subject to intentional manipulation.
For example, in both 2005 and again in 2008, our investigations at the Dallas/Fort Worth
Terminal Radar Approach Control (DFW TRACON) facility found that air traffic
managers at the TRACON intentionally misclassified operational errors as either pilot
deviations or “non-events” 2 to reduce the number of operational errors reported at that
location. Our 2008 investigation identified 62 operational errors and deviations that were
either incorrectly reported as pilot deviations or misclassified as “non-events.” Further,
FAA’s oversight processes failed to uncover this practice despite FAA’s prior assurances
that it would not allow operational errors to go unreported. Our recommendations
included expediting the deployment of the automated TARP reporting system at DFW
TRACON because of the facility’s pervasive problems with self reporting.

Concerns remain about whether FAA is accurately counting the number of operational
errors and sufficiently identifying the trends that contribute to them. For example, it is
unclear how ATSAP reports are factored into FAA’s current counts of operational errors.

1
    ATSAP is intended to better capture the actual number of operational errors and identify and address their root
    causes.
2
     Non-events are those incidents that facility personnel reviewed but determined there was no loss of separation.

                                                                                                                  3
Furthermore, NTSB has raised concerns about the reliability of FAA’s process for
assessing and reporting incidents involving the loss of separation between aircraft and is
currently reviewing airline reports of Traffic Collision and Avoidance Systems (TCAS)
advisories. 3 Since NTSB issued its final rule requiring aircraft operators to report certain
TCAS advisories in January 2010, the Board has received nearly 950 reports of these
collision advisories and has initiated investigations into 9 of the more serious incidents. 4

Further concerns relate to FAA’s recent implementation of the new System Loss of
Standard Separation (LoSS) Index, which is designed to capture each incident where
aircraft fly closer than separation standards permit. 5 It is unclear how FAA will use
LoSS to assess operational error risks or improve its error statistics. At the request of this
Committee and others, we recently initiated two audits to assess FAA’s implementation
and oversight of ATSAP and evaluate FAA’s process for tracking and reporting loss of
separation events and its subsequent efforts to analyze and mitigate identified risks
through the LoSS process.

Clearly, there are a number of questions regarding what is and is not reported in FAA’s
operational error statistics, and we plan to answer these questions in our upcoming audits.
However, the fact that operational errors pose real safety risks is undisputed. FAA needs
good systems and processes that accurately capture operational errors so that the true
magnitude of these incidents is known. FAA needs this data so it can trend operational
errors, identify their root causes, and develop actions to effectively address and mitigate
them. As we progress in our audits into ATSAP and LoSS, we will keep this Committee
apprised of our findings regarding this critical issue.

FAA HAS NOT FULLY IMPLEMENTED RECOMMENDATIONS
TO IDENTIFY AND MITIGATE FATIGUE RISKS
Recent reports of controllers falling asleep while on duty underscore the need for FAA to
take actions to mitigate controller fatigue. At the request of Congress, in 2009 we
evaluated controller fatigue issues at three busy and complex ATC facilities in the
Chicago area and identified a number of factors that could create potential fatigue
conditions for controllers. These factors included minimal hours between shifts for rest
and counter-rotational shifts with progressively earlier start times, on-the-job training
(OJT), and scheduled overtime. We also found that FAA does not consistently include
fatigue issues as part of its normal operational error investigatory process, even though
3
    An onboard TCAS issues advisories for pilots to take evasive actions when the system detects a potential collision
    with other aircraft.
4
    After review by NTSB, many of these reports were considered “nuisance alerts” (i.e., situations in which there
    was no collision risk but TCAS generated a resolution advisory). However, about 260 reports required additional
    data in order for NTSB to understand and evaluate the circumstances that caused the apparent conflict and to
    determine whether further action was warranted.
5
    The new tool calls for the investigation and analysis of all separation losses, not just operational errors. Pilot
    deviations or miscellaneous losses such as emergency descent for pressurization are also included. Instances of
    non-compliance with separation standards will be designated as LoSS events.

                                                                                                                    4
NTSB has identified fatigue as a potential contributing factor in several operational
errors. While our review focused on only the three Chicago facilities, it is likely that the
fatigue factors that we identified exist at other large air traffic control facilities
throughout the Nation. We have made a number of recommendations to address these
concerns, but FAA has not yet implemented all of them.

Scheduling Practices and OJT May Create Risks for Controller Fatigue
Our statistical analyses of schedule information and time and attendance data identified
factors that could create fatigue conditions at all three of the Chicago air traffic control
facilities we reviewed (Chicago O’Hare, Chicago TRACON, and Chicago En Route
Center). For example, we found that most controllers at two of the three locations were
scheduled to work at least one shift each week in which their rest period between shifts
was less than 10 hours. 6 Controllers typically worked a type of schedule commonly
referred to as a “2-2-1 rotation.” While the configuration of the 2-2-1 rotation may vary,
this particular scheduling practice usually consists of a work week with two consecutive
evening shifts, followed by two consecutive day shifts, followed by one midnight shift
(see table 1).

                          Table 1. Example of a 2-2-1 Schedule Rotation
                                  Before FAA's Recent Changes

                         Day             Shift          Start Time           End Time
                           1       Evening           4:00 p.m.           Midnight
                           2       Evening           2:00 p.m.           10:00 p.m.*
                           3       Day               7:00 a.m.           3:00 p.m.
                           4       Day               6:00 a.m.           2:00 p.m.*
                          5        Midnight           10:00 p.m.       6:00 a.m.
                   *Rest periods between shifts close to FAA minimum requirements

Most controllers had at least one “quickturn” during the week, a schedule characterized
by shifts with minimum rest periods between them. In addition, we found that none of
the three locations had established procedures for rotating controllers through more
complex facility positions during scheduled shifts, even though the complexity of these
positions can vary extensively.

We also found that certified controllers at all three facilities conducted OJT on a regular
basis, which requires a high level of concentration and focus on the part of the veteran
controller. The time spent conducting OJT in our samples ranged from 1 to 5 days per
week. ATC managers at all three facilities cautioned that OJT is expected to increase
significantly over the next several years as more trainees are added to the workforce.
6
    FAA Order 7210.3 requires at least 8 hours between shifts for rest. For the purpose of our review, we considered
    a quickturn to be less than 10 hours between shifts because FAA was planning on amending FAA Order 7210.3 to
    increase the time available for rest from 8 hours to 10 hours.

                                                                                                                  5
We made a series of recommendations for mitigating potential fatigue, including
amending FAA ATC orders to (1) increase rest time between shifts from 8 hours to
10 hours, (2) increase the time available for rest after working a midnight shift, and
(3) allow controllers to rest when not controlling traffic. FAA agreed with our
recommendations but subsequently formed a workgroup with the National Air Traffic
Controllers Association (NATCA) to further review controller fatigue issues. The
workgroup completed its study and presented its findings to the Administrator and union
president in January 2011 along with 12 recommendations. To date none of the
recommendations have been implemented, but FAA and NATCA expect to finalize their
proposed actions later this year.

NTSB has also made numerous controller safety recommendations related to fatigue
issues, such as rest periods between shifts, scheduling practices, and fatigue awareness
training. For example, following the 2006 fatal crash of Comair flight 5191, in which
NTSB examined controller fatigue, NTSB specifically recommended that FAA work
with NATCA to revise controller work-scheduling policies and practices and modify shift
rotations to minimize sleep debt and decreased cognitive performance. NTSB’s
recommendations also remain open.

FAA Does Not Know the Extent to Which Fatigue Contributes to
Operational Errors
NTSB has identified fatigue as a potential contributing factor in several operational
errors. 7 Yet FAA’s investigations into the causes of operational errors do not
consistently address human factors, such as fatigue and situational awareness. In our
evaluation of controller fatigue issues at the three Chicago facilities, we found that their
operational error investigations did not consistently include a review of factors that could
cause fatigue. For example, final operational error reports that we reviewed at the
Chicago En Route Center indicated that a controller’s work schedule was a “rotation,”
but there was no further information provided to determine the days or the shifts the
controller actually worked.

Accordingly, in our June 2009 report we recommended that FAA include potential
fatigue factors, such as time off between shifts, as a standard part of its operational error
investigation process to determine the extent that fatigue could be causing these incidents
and identify actions to address the root cause. 8 While FAA agreed with our
recommendation, action has been slow. Last month, in a letter to the Chairman of the
House Committee on Government Oversight and Reform, we identified this
7
     In its April 10, 2007, recommendation letter to FAA and NATCA following the crash of Comair flight 5191,
    NTSB discussed four previous air carrier incidents in which fatigue contributed to controller errors. Three of
    these incidents involved runway incursions in Chicago, IL, on March 23, 2006; Los Angeles, CA, on August 19,
    2004; and Seattle, WA, on July 8, 2001. The fourth incident involved a departure from a closed runway in
    Denver, CO, on September 25, 2001.
8
    OIG Report Number AV-2009-065, “Air Traffic Control: Potential Fatigue Factors,” June 29, 2009. OIG reports
    are available on our Web site at http://www.oig.dot.gov.

                                                                                                                6
recommendation as our most important safety recommendation that remains open. 9 FAA
expects to fully address the issue next month.

Past FAA Requirements for Staffing Midnight Shifts Were Not Consistently
Followed
Recent media coverage of controllers who fell asleep while on duty has drawn attention
to the fact that some air traffic control facilities were staffed with only one controller
during midnight shifts. Following the 2006 fatal crash of Comair flight 5191, similar
concerns were raised regarding single staffed midnight shifts when FAA policies issued
in 2005 required that two controllers be present in towers that provide both tower control
and radar services. At the request of the then Ranking Member of the House Committee
of Transportation and Infrastructure and the then Ranking Member of the House
Subcommittee on Aviation, we reviewed FAA policies that prohibited one controller
from performing both radar and tower controller duties during midnight shifts and
determined the extent to which the towers covered by the policies complied with them.
We reported in 2007 that the policies were not being followed consistently. 10 Based on a
sample of midnight shifts, we were able to statistically project that approximately
11.1 percent of the total midnight shifts included in our review period were staffed with
only one controller. 11

More importantly, we found evidence suggesting that the radar and ground control duties
were combined for substantial periods of time even when there were at least two
controllers on duty. For example, at several facilities, position logs we reviewed showed
that all positions on midnight shifts were routinely combined and the two controllers on
duty alternated between working the one position and taking breaks. In response to
recent events, Administrator Babbitt recently stated that FAA will place two controllers
on midnight shifts at 27 control towers not covered by the 2005 policy. As part of these
actions, FAA needs to implement corresponding controls identifying when both
controllers are expected to be on position.

FAA FACES MANAGEMENT CHALLENGES IN TRAINING ITS
CONTROLLER WORKFORCE
FAA is taking action to hire and train nearly 11,000 new controllers through fiscal year
2020 to replace the large numbers of retiring controllers hired after the 1981 ATC strike.

9
   Correspondence number CC-2011-024. “Letter to Chairman Issa on OIG’s Open Audit Recommendations,” April
   29, 2011.
10
   OIG Report Number AV-2007-038, “Review of Staffing at FAA’s Combined Radar Approach Control and Tower
   With Radar Facilities,” March 16, 2007.
11
   Our review of 20 randomly selected weeks of staffing data for midnight shifts at 15 of the 62 facilities in our
   universe (a total of 2,100 shifts) identified 234 shifts where only 1 controller was scheduled on the midnight shift.
   Based on the results of our sample, we can statistically project (with a 95-percent confidence level) that
   approximately 2,563 or 11.1 percent of the 23,002 total midnight shifts (at the 62 facilities in our universe) were
   staffed with only 1 controller between August 28, 2005, and September 2, 2006.

                                                                                                                      7
However, training and certifying new controllers have been a challenge, in large part
because FAA’s initial controller training requirements in its training contract were not
well defined and the contract costs far exceeded the first 2 years’ estimates. Because
costs for basic training needs were so far above estimates, current training methods have
remained essentially unchanged and FAA has not been able to implement new
approaches and pilot programs expected to improve the quality and timeliness of
controller training. In addition, FAA’s metrics for managing its controller training
program do not provide a true picture of the effectiveness of its training efforts.

Expected Innovations in Facility Controller Training Have Not Been
Realized
Training new controllers to the Certified Professional Controller (CPC) level is important
for two reasons: (1) only CPCs are qualified to control traffic at all positions of their
assigned area, and (2) only CPCs certified for at least 6 months at their assigned location
can become OJT instructors for other new controllers. Total training can take up to
3 years, and facility training is the lengthiest and most expensive part of new controller
training. In 2008, FAA awarded a contract to Raytheon to administer the Air Traffic
Controller Optimum Training Solution Program (ATCOTS), a critical component of
FAA’s plans to hire and train 11,000 new controllers by 2020. In designing and
executing the ATCOTS program, however, FAA did not fully consider the number of
controllers that needed training under the contract. For example, the contract solicitation
stated that bidders were expected to train approximately 4,000 developmental controllers.
However, Raytheon estimated that about 5,620 controllers needed training—41 percent
more than FAA originally estimated. As a result, FAA now faces significant challenges
in training a new generation of controllers to replace those who are retiring.

As we reported last September, 12 ATCOTS contract costs and fees to date exceeded
baseline estimates by 35 percent during the first year of the contract (from $81 million to
$109 million) and increased by 20 percent during the second year (from $91 million to
$109 million). The impact of these cost overruns is that funds have only been sufficient
to support existing training methods and procedures, not innovative training programs.

FAA is taking action to address many of the issues identified during our audit. For
example, FAA has added a new planning tool for evaluating the level of instructor
staffing at air traffic facilities. FAA is also establishing training priorities to ensure that
costs remain within baseline estimates. However, it will be difficult for FAA to achieve
ATCOTS’s original training goals or implement any training innovations without
significantly modifying the existing contract.




12
     OIG Report Number AV 2010-126, “FAA’s Air Traffic Controller Optimum Training Solution Program: Sound
     Contract Management Practices Are Needed To Achieve Program Outcomes,” September 30, 2010.

                                                                                                        8
FAA Metrics Do Not Provide a Complete Picture of the Effectiveness of Its
Training Program
Accurately assessing the controller training program is critical for ensuring a sufficient
number of new hires are prepared to replace retiring veteran controllers and are assigned
to the appropriate level and type of facility. Such assessments can also alert FAA to
weaknesses in its training program that need to be addressed. However, as we recently
reported, 13 FAA’s metrics for measuring the effectiveness of the controller training
program are inadequate to identify weaknesses and make appropriate and timely
adjustments to the program. For example, for fiscal year 2009, FAA reported a program
attrition rate of 9 percent. However, as figure 1 shows below, the success rate was only
4 percent while 87 percent of the controllers were still completing their initial training,
which can take 2 to 3 years.

         Figure 1. FAA’s New Controller Training Data for Class Hired in FY 2009

                      In-Progress 87%
                      (1,387
                      Controllers)




                                        Attritions 9%                      Successes 4%
                                             (136                         (71 Controllers)
                                         Controllers)




When we assessed the number of controllers who successfully completed training during
a given period of time against those who did not, we found a significantly higher attrition
rate. For example, we grouped the controllers by the fiscal year they ended training and
then identified whether they ended the training successfully or unsuccessfully. Our
analysis showed that the attrition rate for the controllers who ended their initial training in
fiscal year 2009 was 21 percent and their success rate was 79 percent.

We recommended steps FAA should take to measure and present a more complete
picture of the effectiveness of its air traffic controller training program. FAA agreed and
is now using more complete metrics for evaluating its training successes.




13
     OIG Report Number AV-2011-072, “FAA Must Improve Its Controller Training Metrics To Help Identify
     Program Needs,” March 30, 2011.

                                                                                                    9
CONTROLLER STAFFING AND PLACEMENT CAN BE
IMPROVED
FAA’s placement process does not adequately consider new controllers’ knowledge,
skills, and abilities when assigning them to FAA’s more than 300 ATC facilities, which
vary extensively in the number and complexity of operations. In addition, the recent
surge of newly hired controllers means there are fewer certified controllers in the
workforce to control air traffic and provide OJT for new controllers. At some critical
locations, the percentage of new controllers in training is extremely high, which could
impact operations not only at that location but potentially throughout the NAS.

FAA Does Not Adequately Consider Aptitude When Placing New
Controllers
FAA has streamlined its hiring process, and over the past several years successfully met
its hiring goals for new controllers. However, FAA’s process for placing new controllers
once they are hired does not sufficiently evaluate their aptitude before assigning them to
complex facilities. As we reported in April of last year, 14 FAA does not use results of the
Air Traffic Selection and Training Test (AT-SAT) to match new controllers’ aptitude to
the level of facility. 15 Instead, FAA assigns new controllers to locations based primarily
on their facility choice and available vacancies. As a result, new controller candidates are
being assigned to some of the busiest air traffic control facilities in the Nation with little
consideration of whether they have the knowledge, skills, and abilities necessary to
become certified controllers at those locations. We recommended that FAA place new
controllers based in part on their performance at the FAA Academy. FAA partially
agreed with our recommendation and initiated a study, which the Agency expects to
complete by December 2012.

Critical Facilities May Need More Certified Professional Controllers To
Maintain Continuity of Operations
The increase in hiring has changed the makeup of the controller workforce. Currently,
new controllers comprise up to 25 percent of the ATC workforce compared to 15 percent
in 2004. However, this percentage can vary extensively by location. For example,
Seattle TRACON has 46 percent of its controller workforce in training, while St. Louis
TRACON has no controllers in training. Our work at three facilities in California (LAX,
Southern California TRACON (SCT), and Northern California TRACON) 16 showed that
FAA needs to take additional measures to ensure that these critical locations have enough
certified controllers to ensure continuity of safe operations. For example, SCT had the

14
   OIG Report Number AV-2010-049, “Review of Screening, Placement, and Initial Training of Newly Hired Air
   Traffic Controllers,” April 1, 2010.
15
   Air traffic control facilities are categorized by levels (4 through 12) based on the complexity and number of
   operations. Level 4 facilities are the least complex, while Level 12 are the most complex.
16
    OIG Report Number AV-2009-047, “Controller Staffing at Key California Air Traffic Control Facilities,”
   April 23, 2009.

                                                                                                            10
highest percentage of existing and planned new controllers of the three facilities and had
experienced a sharp decline in CPCs over the past 5 years. A significant issue was that
SCT expected to have more than 100 controllers in training— more than 40 percent of its
workforce—which could overwhelm the facility training capacity. We identified four
specific focus areas that FAA needed to address: (1) making these locations a top priority
in FAA’s ongoing efforts to validate staffing ranges, (2) expanding the use of relocation
and retention incentives, (3) providing enough instructors and other training resources,
and (4) ensuring appropriate use of overtime hours.

Based on our results at Southern California, we initiated a review of staffing at other
critical NAS facilities. We identified more than 20 facilities that, if operations had to be
curtailed due to a lack of certified controllers, could impact the entire NAS. FAA agreed
that these facilities are critical. Some of these facilities currently have a significant
percentage of their workforce in training or eligible to retire. For example, the Denver
TRACON has 43 percent of its workforce in training, and LaGuardia ATC Tower has
39 percent. We are reviewing FAA’s plans to provide its critical facilities with
appropriate controller staffing, training resources, and other support necessary to ensure
continuity of facility operations. We expect to report on our results later this year.

CONCLUSION
While FAA’s recent actions to improve ATC operations are steps in the right direction,
sustained oversight and commitment are needed to identify the root causes of ATC
incidents and address longstanding concerns. Until FAA takes action to develop
comprehensive data (such as accurately capturing all operational errors), conduct astute
trend analyses, and develop timely action plans to address controller workforce risks and
vulnerabilities, FAA cannot ensure it has a sufficient number of alert, competent, and
certified controllers needed to effectively manage the challenges of the next generation of
air traffic control.

Madam Chairman, this concludes my prepared statement. I would be happy to address
any questions you or other Members of the Subcommittee may have.




                                                                                         11
EXHIBIT A. SIGNIFCANT OIG AIR TRAFFIC CONTROL
RECOMMENDATIONS AND FAA ACTIONS TAKEN IN
RESPONSE
    Date                    OIG Recommendation                            FAA’s Actions Taken in Response
December     Develop a strategy, in conjunction with OASIS            FAA completed an A-76 study and contracted
2001         deployment, to consolidate the 61 existing               out its Flight Service Stations in 2005 at an
             Automated Flight Service Stations.                       estimated savings of $1.7 billion.
September    Establish milestones for completing a national           FAA developed the national database for
2003         database on all MOUs                                     controlling MOUs at the national level.
June 2004    Compile national statistics and establish a baseline     FAA established the National Training
             to better manage the time and costs associated with      Database to manage and track controller
             the controller OJT process.                              training at the national level.
June 2004    Establish a system to uniformly estimate controller      FAA published the 4-year attrition estimates
             attrition by location.                                   by location in the 2006 and 2007 Controller
                                                                      Workforce Plan.
June 2004    Develop an assessment process for identifying a          FAA concurred and stated it was evaluating
             new controller’s potential to certify at a certain       data gathered from AT-SAT scores to
             facility level and use this information in placing       determine whether this information can
             newly hired controllers.                                 improve the controller placement process.
                                                                      FAA has not yet completed this evaluation.
May 2005     Initiate the planned assessment of the current           FAA completed its efforts to revise the
             staffing standards for each facility.                    standards for towers and en route facilities in
                                                                      2007, and completed revised standards for
                                                                      TRACON facilities in 2009.
February     Include in the Controller Workforce Plan (CWP) the       FAA included staffing ranges and actual on
2007         staffing ranges for each facility.                       board numbers for each facility in the CWP.
April 2008   Permanently change DFW TRACON management                 FAA removed the facility manager and
             team responsible for the misclassification of            assistant manager and assigned acting
             operational errors.                                      managers until permanent replacements
                                                                      were selected.
April 2008   Expedite the early deployment of TARP at DFW             FAA accelerated the implementation of TARP
             TRACON from its current date of 2011.                    to the end of FY 2008.
June 2008    Include in the CWP the actual number of CPCs,            Beginning in 2009, FAA listed the
             CPC-ITs, and developmental controllers by location.      composition of the controller workforce by
                                                                      location.
June 2008    Designate authority and responsibility for oversight     FAA delegated authority for facility training to
             and direction of the facility training program at the    the Manager for Technical Training and
             national level.                                          Facilities Oversight through Order 3120.4M.
March 2009   Develop milestones for implementing Traffic              FAA plans to completely implement TARP by
             Analysis and Review Program (TARP) as a full-time        September 2011.
             separation conformance tool
June 2009    Expand operational error investigatory requirements      The next version of FAA’s Air Traffic Safety
             to include more detailed information on fatigue          Action Program submitter report, scheduled
             factors, such as overtime, OJT, and work                 for implementation in summer 2011, will
             schedules.                                               contain the fatigue data capture questions.
September    Ensure that the ATCOTS program office has                FAA estimates that additional personnel will
2010         enough qualified personnel to oversee the                be added by December 31, 2011.
             contractual, financial, and operational aspects of the
             program.




Exhibit A. OIG Recommendations and FAA Actions                                                                     12
EXHIBIT B. OIG PUBLISHED REPORTS ON ATC ISSUES
SINCE 2000

    Report                                            Report Title                                     Date
    Number                                                                                           Published
 AV-2001-011       Actions to Reduce Operational Errors and Deviations Have Not Been Effective       December
                                                                                                     2000
 AV-2002-064       Automated Flight Service Stations: Significant Benefits Could be Realized by      December
                   Consolidating AFSS Sites in Conjunction with Deployment of OASIS                  2001
 AV-2003-040       Operational Errors and Runway Incursions: Progress Made, but the Number           April 2003
                   of Incidents is Still High and Presents Serious Safety Risks
 AV-2003-059       FAA’s Management of and Control Over Memorandums of Understanding                 September
                                                                                                     2003
 AV-2004-060       Opportunities To Improve FAA’s Process For Placing and Training Air Traffic       June 2004
                   Controllers in Light of Pending Retirements
 AV-2004-085       Audit of Controls Over the Reporting of Operational Errors                        September
                                                                                                     2004
 AV-2005-060       Controller Staffing: Observations on FAA’s 10-Year Strategy For The Air           May 2005
                   Traffic Controller Workforce
 AV-2006-021       FAA Has Opportunities to Reduce Academy Training Time and Costs by                December
                   Increasing Educational Requirements for Newly Hired Air Traffic Controllers       2005
 AV-2006-050       Report on the Air Traffic Organization’s Management Controls Over Credit          June 2006
                   Hours
 AV-2007-032       FAA Continues To Make Progress In Implementing Its Controller Workforce           February
                   Plan, But Further Efforts Are Needed In Several Key Areas                         2007
 AV-2007-038       Review Of Staffing At FAA’s Combined Radar Approach Control and Tower             March 2007
                   With Radar Facilities
 AV-2007-048       Controls Over the Federal Aviation Administration’s Conversion of Flight          May 2007
                   Service Stations to Contract Operations
 AV-2007-050       Progress Has Been Made in Reducing Runway Incursions, but Recent                  May 2007
                   Incidents Underscore the Need for Further Proactive Efforts
 AV-2008-055       Review of the Air Traffic Controller Facility Training Program                    June 2008
 AV-2009-045       FAA’s Process for Reporting and Investigating Operational Errors                  March 2009
 AV-2009-047       Controller Staffing at Key California Air Traffic Control Facilities              April 2009
 AV-2009-059       Training Failures Among Newly Hired Air Traffic Controllers                       June 2009
 AV-2009-065       Air Traffic Control: Potential Fatigue Factors                                    June 2009

 AV-2010-049       Review of Screening, Placement, and Initial Training of Newly Hired Air Traffic   April 2010
                   Controllers
 AV-2010-071       Review of FAA’s Call to Action Plan For Runway Safety                             July 2010
 AV-2010-126       FAA’s Air Traffic Controller Optimum Training Solution Program: Sound             September
                   Contract Management Practices Are Needed To Achieve Program Outcomes              2010
 AV-2011-072       FAA Must Improve Its Controller Training Metrics To Help Identify Program         March 2011
                   Needs


Note: OIG reports are available on our Web site at http://www.oig.dot.gov.




Exhibit B. OIG Published Reports                                                                                  13
